January 30, 2009

JORDAN M. SMALL
VICE PRESIDENT, DELIVERY OPERATIONS

    SUBJECT: Audit Report – Vehicle Warranty Claims Process
             (Report Number DR-AR-09-004)

This report presents the results of our self-initiated audit, Review of Vehicle Warranty
Claims Process (Project Number 07XG043DR000). The overall objective was to
determine whether the vehicle warranty claims process ensured reimbursement to the
U.S. Postal Service for work performed on vehicles covered by a manufacturer’s
warranty. See Appendix A for additional information about this audit.

Conclusion

The Postal Service did not always (1) identify vehicles that had warranty work and
(2) obtain reimbursement for warranty repair work conducted with its resources. This
occurred because of ineffective vehicle warranty and reimbursement processes as well
as weaknesses in the oversight of these processes. As a result, the Postal Service lost
over $2.9 million and has an opportunity to save $619,279 in fiscal year (FY) 2009.

Warranty Vehicle Identification

Vehicle maintenance facility (VMF) units did not always identify vehicles under a
manufacturer’s warranty and appropriately code the repair for reimbursement. In our
sample of 8,019 vehicles under a manufacturer’s warranty, the VMF units conducted
about 3,200 maintenance and repairs on vehicles. Thirty-two percent of these repairs
were covered by warranty, but were not identified for reimbursement. This occurred for
the following reasons.

      •   VMF units did not have an effective process in the Vehicle Maintenance
          Accounting System (VMAS) for maintenance technicians to identify vehicles
          requiring repairs while still under a manufacturer’s warranty.

      •   VMF units did not always review repair work orders to ensure warranty vehicles
          were properly coded, as required by Postal Service policy.1

By not being reimbursed for warranty work, the Postal Service had questioned costs of
$1,043,797 for FYs 2006 through 2008. However, the Postal Service has the


1
  Handbook PO-701, Fleet Management, March 1991, updated by Postal Bulletin revisions through March 31, 2005,
requires warranty work to be coded as account code (AC) 45.
Vehicle Warranty Claims Process                                               DR-AR-09-004



opportunity to save $221,336 (funds put to better use) in FY 2009. See Appendix B and
Appendix D for additional information.

We recommend that the Vice President, Delivery Operations:

1. Modify the Vehicle Maintenance Accounting System to be able to readily identify
   vehicles under warranty when the vehicle’s identification number is entered into the
   system or establish an alternative process to aid vehicle maintenance facility
   technicians in identifying warranty vehicles.

2. Re-emphasize Postal Service policy for supervisory review of work orders to ensure
   all warranty repairs are correctly coded for reimbursement.

Warranty Reimbursement

VMF units did not always submit work and reconcile payments received for repairs
made on warranty vehicles with Postal Service resources. For example, our sample of
35 VMF units identified $478,773 in repairs that required reimbursement. However,
VMF units recovered only $206,745 (or 43 percent) of this amount because:

   •   Oversight by district officials was not adequate to ensure VMF units submitted
       work orders coded for reimbursement to the manufacturer.

   •   The Postal Service did not have a policy requiring reconciliation of payments
       received for warranty work. Further, manufacturers’ payments are received in a
       single check amount with no itemized listing; therefore, VMF units do not have
       the capability to reconcile individual warranty payments.

As a result, the Postal Service may not have received $1,876,654 in reimbursement
(questioned costs) for resources used to repair warranty vehicles for FYs 2006 through
2008, and has an opportunity to save $397,943 (funds put to better use) in FY 2009.
See Appendix C and Appendix D for additional information.

We recommend the Vice President, Delivery Operations:

3. Reinforce to vehicle maintenance facility units the requirement to monitor the vehicle
   warranty process.

4. Require vehicle maintenance facility units to submit eligible claims for reimbursement
   of warranty repairs.

5. Collaborate with vehicle manufacturers to provide detailed warranty data to aid in the
   reconciliation of warranty reimbursement payments.

6. Establish policy requiring that future warranty reimbursements be periodically
   reconciled for accuracy.



                                            2
Vehicle Warranty Claims Process                                               DR-AR-09-004



Management’s Comments

Management had significant concerns with the draft report transmittal letter’s footnotes
defining unrecoverable and recoverable questioned costs, as well as the report’s
findings and monetary impact, but agreed with our recommendations. After further
discussion, they agreed in principle with the methodology and monetary impact.

Management expressed significant concerns with the definitions for unrecoverable and
recoverable questioned costs. Management stated that if the costs were not
documented, as a portion of the definition stated, then they questioned the validity and
appropriateness of the report. Management also requested a briefing with the U.S.
Postal Service Office of Inspector General (OIG) to discuss all documentation gathered
and, on December 16, 2008, the OIG met with management regarding their concerns.
At the meeting management agreed in principle with the monetary impact identified, but
remained concerned about the definitions.

Management also had concerns about the findings in the report. Specifically,
management said the report did not acknowledge that some vehicle repairs and
requests for reimbursement can be more costly when a vehicle is still under warranty.
In those cases it is actually cheaper to return the vehicle to the VMF for service and
forego filing a warranty claim. Management also stated the report needed to recognize
that some warranty claims will be filed, but reimbursement denied due to reasons such
as warranty expiration, excess mileage, or other similar reasons. Next, management
stated they did not agree with the OIG’s method of comparing the dollar amount that
VMFs should have received versus the amount they did receive. Finally, management
stated Vehicle Operations and the field facilities are unable to accurately determine the
warranty status on many non-mail hauling vehicles when certain user groups have not
entered the vehicles in the asset database, so they cannot be held accountable for
warranty reimbursements of these vehicles.

Management’s response to the recommendations included plans to (1) issue a
comprehensive vehicle warranty policy in March 2009, (2) replace the VMAS with a new
system that will maintain all vehicle warranty requirements by the end of FY 2009, and
(3) collaborate with vehicle manufacturers to provide detailed warranty data to aid in
reconciling warranty reimbursement payments. Management informed the OIG that
new major purchase agreements should include this arrangement; however, the Postal
Service plans no major vehicle purchases. We have included management’s comments
in their entirety in Appendix G.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the findings,
recommendations, and monetary impact in the report.

We agree with management that there were possible insignificant repair costs that
would not warrant the time to process the warranty claim. However, the Postal



                                            3
Vehicle Warranty Claims Process                                                DR-AR-09-004



Service’s National Ordering Agreement with the Warranty Processing Company (WPC)
alleviates the need for the VMF to process work orders by sending the work order to the
WPC. Regarding warranty claims filed, we reiterated to management that our analysis
did not include any vehicles that were not under warranty or had mileage in excess of
warranty requirements. We also explained in the exit conference that one primary
reason reimbursements were not paid was that the manufacturer denied the claim
because the VMF did not file claims within the time limit. Regarding OIG methodology,
we agree that not all claims will be fully reimbursed, and because of that, our analysis
had only included claims that were customarily reimbursed. Regarding VMAS vehicle
data, we reiterated that we based our analysis on data relating to vehicle acquisition
dates, mileage, and repairs as reflected in VMAS for the audit period. Therefore, we did
not include any vehicles that were not in this system in the scope of our audit or in our
analysis.

The OIG considers recommendations 1, 3, 4, and 5 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when management completes corrective actions. These recommendations should not
be closed in the follow-up tracking system until the OIG provides written confirmation
that they can be closed. We will report $2,920,451 in unrecoverable questioned costs
and $619,279 in funds put to better use in our Semiannual Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, Director, Delivery,
or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Wayne W. Corey
    Katherine S. Banks




                                            4
Vehicle Warranty Claims Process                                                                        DR-AR-09-004



                                APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service-owned fleet is predominantly used to provide transportation for the
“first and last miles” of its delivery network. The fleet currently consists of over 221,000
vehicles used primarily for mail delivery, but also includes vehicles used for plant and
vehicle maintenance support, mobile post offices, law enforcement, and other support
functions. See Table 1.

                    Table 1. Postal Service Vehicle Inventory for 2008
               Delivery and Collection Vehicles (½- to 2-ton        197,898
               capacity)
               Mail Transport Vehicles (tractors and trailers)        6,455
               Administrative Vehicles and Other Vehicles             5,906
               Service Vehicles (maintenance)                         5,272
               Inspection Service and Law Enforcement Vehicles        3,288
               Mail Transport Vehicles (3- to 11-ton capacity)        2,228
               Total Vehicles                                       221,047
              Source: Postal Service Comprehensive Statement on Operations 2008

During FYs 2006 and 2007, the Postal Service had 27,505 vehicles with an active
manufacturer’s warranty.2 See Table 2.

                                Table 2. Number of Vehicles Under
                                       Manufacturer’s Warranty
                                                         Number of
                                 Postal Service Area
                                                          Vehicles
                               Great Lakes                     5,595
                               Western                         4,402
                               Eastern                         3,480
                               Capital Metro                   2,723
                               Southeast                       2,610
                               New York Metro                  2,540
                               Southwest                       2,485
                               Pacific                         2,295
                               Northeast                       1,375
                               National Total                                27,505
                              Source: VMAS

The vehicles in Table 2 are primarily vans and large cargo trucks used to support
delivery operations. Postal Service procedures require VMF managers and

2
  A vehicle is considered under warranty when the supplier implies the vehicle under contract is merchantable and fit
for the particular purpose described in the contract. The manufacturer’s warranty coverage period is usually 3 years
or 36,000 miles.


                                                          5
Vehicle Warranty Claims Process                                                                      DR-AR-09-004



postmasters at Vehicle Post Offices to maintain aggressive warranty recovery
programs. Documentation and recovery of warranted parts, materials, and labor is
essential to minimizing fleet costs and identifying potentially adverse maintenance
issues and trends.

Warranty Claims and Recovery Process

The Postal Service uses a warranty claim and recovery process to obtain
reimbursement for Postal Service resources used to repair vehicles covered under the
manufacturer’s warranty.

Vehicle Maintenance Bulletin (VMB)3 V-05-02, Warranty Recovery, states that when
VMFs purchase and receive new vehicles, Postal Service Headquarters, Vehicle
Operations, issues the vehicle warranty data information in VMBs.

The manufacturer’s warranty covers the cost of all parts and labor needed to repair any
item on a vehicle that is defective in material, workmanship or factory preparation. This
type of repair is considered unscheduled maintenance because of its nature. The
Postal Service has two methods of making necessary repairs.

    •   The dealership or the manufacturer’s designated commercial repair facility. This
        method requires no financial transaction on the part of the Postal Service and is
        preferred when available in the local area.

    •   VMF units. Vehicle manufacturers consider the VMFs authorized service centers
        for the manufacturer.

When VMF units repair warranty vehicles, they must identify the vehicles as still under a
manufacturer’s warranty, assign Account Code 45 titled ”warranty repair,” and file a
warranty recovery claim for the repair costs, including parts and labor. VMF supervisors
are responsible for ensuring all work orders are properly coded for reimbursement prior
to approving for input in VMAS.

VMF units have two means of processing warranty recovery claims.

    •   Submit the claim directly to the manufacturer online, by fax, or by another
        method as specified by manufacturer, or

    •   Send the warranty work orders to the WPC to process with the manufacturer on
        behalf of the Postal Service for a fee.4

3
  Postal Service Headquarters also issues VMBs that contain make/model-specific warranty information and
procedures for the vehicles. The VMBs also outline options and methods for recovery of warranty repair costs on
postal–owned vehicles covered during the manufacturer’s warranty period.
4
  The Postal Service has a National Ordering Agreement (NOA) with WPC to submit these claims to the
manufacturer. The Postal Service pays WPC 8.5 percent of the recovery amount for their service. WPC is the
preferred provider for warranty processing service under the established NOA. The fee is paid after reimbursement is
made to the Postal Service, using a SmartPay card.


                                                         6
Vehicle Warranty Claims Process                                                                    DR-AR-09-004




When the VMF unit receives the warranty reimbursement from the manufacturer or
WPC, a credit will be reflected in the district or postmaster’s finance number. These
credits usually also appear under the AC 46, “warranty reimbursement,” line item in
VMAS as a record of amounts collected from manufacturers for warranty repairs.

When the WPC processes claims, it sends the VMF units documentation for all claims
submitted, accepted, and rejected and issues warranty payments to the VMFs. These
payments will also appear under AC 46 in VMAS.5 See Appendix F for a flowchart.

VMF units are required to maintain a master file of claims, including reimbursement
deposit receipts or reports. The VMF must report warranty reimbursement disputes to
Vehicle Operations at Postal Service Headquarters and send a copy of the report to the
area.

OBJECTIVE, SCOPE, AND METHODOLOGY

The overall audit objective was to determine whether the vehicle warranty claims
process ensured reimbursement for Postal Service work performed on vehicles covered
by a manufacturer’s warranty.

To accomplish the objective, we obtained a sample of 8,019 of the 27,505 vehicles
under warranty during FYs 2006 through 2007. Using this sample, we obtained from
VMAS all work orders with AC 22, 24, and 45 – scheduled and unscheduled
maintenance and warranty repairs, respectively. Our scope included vehicles with an
acquisition date between the third quarter of FY 2003 and the fourth quarter of FY 2007.
We coordinated with VMF units to identify repairs for vehicles meeting this criterion that
should have been covered under warranty and if so, the cost of the repairs and the
reimbursement the VMF should have received. See Appendix E for the selected 35
VMF sites.

We reviewed the warranty claim file for FY 2006 and FY 2007 to validate whether the
VMF filed claims for warranty reimbursements and reconciled the claims with work
orders to ensure all claims were paid or had valid rationale for nonpayment. We
obtained VMAS work orders for repairs identified as warranty repairs, AC 45, and
calculated the cost that was eligible for reimbursement. We then compared the amount
the VMF should have processed and received for AC 45 to the amount that they
actually received and recorded in General Ledger Account 52951 (Vehicle Supplies and
Services — Nationwide Warranty Negotiations) to identify any warranty repair costs that
were not reimbursed.

We combined the total amount of repair costs (which should have been identified when
work was performed under ACs 22 or 24) and the amount of repairs identified correctly
using AC 45, and compared the total to the actual reimbursement amount the VMFs

5
 AC 46 is the account for monies received from Manufacturers for Warranty Claims submitted by the Postal Service
or on behalf of the Postal Service.


                                                        7
Vehicle Warranty Claims Process                                              DR-AR-09-004



received. We then determined the proportional ratio of warranty repair costs to the
reimbursement amount the VMFs received and projected this ratio nationwide.

We conducted this performance audit from September 2007 through January 2009 in
accordance with generally accepted government auditing standards and included tests
of internal controls that were considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient and appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We relied on data from VMAS.
We did not audit this system, but performed a limited review of data integrity to support
our reliance on the data. We discussed our observations and conclusions with
management on August 15, 2008, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

The U.S. Postal Service Office of Inspector General (OIG) issued one report related to
our objective, titled Audit of the United States Postal Service Warranty Repair of
Tractors (Report Number CA-AR-00-001, dated May 17, 2000.) This report concluded
the Postal Service had not been reimbursed for between $977,598 and $1,879,104 of
warranty repair work performed by VMFs on tractors, as allowed by three tractor
contracts. Officials stated this occurred because the Postal Service had not
implemented an agency-wide claims processing system. The report recommended
implementation of a reimbursement system and concluded the Postal Service’s actions
should prevent the loss of about $400,000 for the 2 years remaining on the tractor
warranties. Management agreed with our findings, recommendations, and monetary
impact.




                                            8
          Vehicle Warranty Claims Process                                                                DR-AR-09-004



                             APPENDIX B: WARRANTY VEHICLE IDENTIFICATION

          VMF units often did not identify vehicles under warranty and ensure they were properly
          coded for reimbursement. We found of the 3,196 vehicle repairs covered by the
          manufacturer’s warranty, VMF units identified 2,171 (68 percent) of the vehicle repairs
          as under warranty. VMF units did not identify the remaining 1,025 vehicles (32 percent)
          as repairs under warranty. As a result, the Postal Service did not identify $170,275 in
          warranty repair costs under AC 45 for reimbursement. See Table 3.

                               Table 3. Warranty Vehicle Identification and Costs
                                                                         Percentage
                                                                         of Repairs
                      Total       Total                     Repairs          Not        Total Cost    Total Cost of    Total Cost
                    Number of  Number of       Repairs     Correctly      Correctly         of        Warrantable     of Correctly
 Postal Service      Sample    Warrantable       Not         Coded      Identified as   Warrantable   Repairs Not      Identified
       Area          Vehicles    Repairs      Identified   with AC 45     Warranty       Repairs       Identified       Repairs
Capital Metro              928          307         143           164              47       $75,669         $26,272       $49,396
Eastern                  1,281        1,208         325           883              27       236,863          39,183       197,680
Great Lakes              1,870          277         152           125              55        70,103          24,487         45,616
Northeast                  441          249           49          200              20        55,786           9,637         46,149
New York Metro             341           71           67            4              94        14,667          12,641          2,026
Pacific                    906          319           57          262              18        87,771          15,799         71,972
Southeast                  358           90           15           75              17        12,977           3,885          9,092
Southwest                  111           43           40            3              93         7,898           6,529          1,369
Western                  1,783          632         177           455              28        87,314          31,842         55,473
Totals/Averages          8,019        3,196       1,025         2,171              32     $649,048        $170,275       $478,773
            Source: VMAS and VMF Units

          We identified several reasons for these occurrences.

              •   This occurred most often when VMF units repaired vehicles due to a breakdown
                  or failed part. VMF unit personnel usually mistakenly assigned a work order with
                  an AC 24, “unscheduled repair” line item, instead of an AC 45, “warranty repair”
                  line item.

              •   Most VMF units did not consistently review vehicle maintenance work orders to
                  ensure maintenance technicians used AC 45. Of the 35 VMFs in our sample, we
                  identified only seven units that reviewed work orders for proper coding of
                  warranty repairs.

              •   Identifying vehicles under warranty depended almost entirely on the initiative of
                  vehicle maintenance technicians to research and determine if vehicles requiring
                  repair were still under warranty. This was made more difficult by the fact that the
                  VMAS work order template does not have a field to identify whether vehicles
                  being repaired are under warranty. This task was simply not a priority and
                  improper coding was often overlooked.




                                                                9
Vehicle Warranty Claims Process                                               DR-AR-09-004



Because the Postal Service did not properly identify warranty work, it did not receive
reimbursement for $1,043,797 (questioned costs) for FYs 2006 through 2008. The
Postal Service has the opportunity to save $221,336 (funds put to better use) for
FY 2009.




                                            10
Vehicle Warranty Claims Process                                                                   DR-AR-09-004



                 APPENDIX C: WARRANTY VEHICLE REIMBURSEMENTS

The Postal Service was not reimbursed for all work identified as warranty repairs. This
condition existed because of inadequate review by district officials to ensure work
orders coded to recover Postal Service resources for repairs on warranty vehicles were
processed, submitted for reimbursement, and reconciled for accuracy when payments
were received.6 Specifically:

    •   Of the 35 VMF units reviewed, 15 received 50 percent or less of identified
        warrantable repair costs. For example, the VMFs in our sample were eligible for
        $478,773 in reimbursement for repairs they identified as covered under a
        manufacturer’s warranty recorded in AC 45. However, the VMFs received only
        43 percent, or $206,745, of this amount. (See Table 4.) Only 13 VMF units
        received full warranty reimbursements for identified warranty repairs.

    •   VMF units did not reconcile warranty reimbursements from the manufacturer. In
        particular, Postal Service policy did not require payments to be reconciled and
        VMF units did not question the amount received. Further, VMF units could not
        reconcile payments because manufacturers submitted payments to the VMFs in
        single check amounts with no itemized listings of claims submitted.

                   Table 4: Warranty Vehicle Reimbursement Information
                     Total Value of       Total Value     Total Value     Percentage of        Percentage of
                       Warranty           of Warranty     of Warranty    Warranty Vehicle     Warranty Vehicle
                    Vehicle Repairs         Vehicle         Vehicle          Repair               Repair
   Postal Service     Eligible for          Repairs       Repairs Not    Reimbursements       Reimbursements
         Area       Reimbursement         Reimbursed      Reimbursed        Received           Not Received
 New York Metro               $2,026                $0          $2,026                  0                  100
 Great Lakes                  45,616             8,382          37,234                 18                    82
 Pacific                      71,972            17,992          53,980                 25                    75
 Eastern                    197,680             58,636        139,044                  30                    70
 Capital Metro                49,396            26,356          23,040                 53                    47
 Northeast                    46,149            30,692          15,457                 67                    33
 Western                      55,473            54,226           1,247                 98                     2
 Southwest                     1,369             1,369               0               100                      0
 Southeast                     9,092             9,092               0               100                      0
 Total/Averages            $478,773          $206,745        $272,028                  43                    57
Source: VMAS and VMF Units

With the exception of warranty work performed on Mack trucks by the Phoenix, AZ VMF
unit we did not identify any VMFs in our sample that regularly reconciled
reimbursements received from the manufacturer. This also included units that
processed claims through the WPC. Specifically, the manufacturer paid claims in one
check, which did not provide an itemized list of the reimbursements so the Postal
Service could perform reconciliations.




6
 The Model VMF Performance Review requires districts and areas to determine the efficiency of VMF units and
certify or recertify each unit at least every 3 years.


                                                         11
Vehicle Warranty Claims Process                                           DR-AR-09-004



As a result, the Postal Service did not receive reimbursement for $1,876,654
(questioned costs) for FYs 2006 through 2008. The Postal Service has the opportunity
to save $397,943 (funds put to better use) for FY 2009.




                                         12
    Vehicle Warranty Claims Process                                                                                           DR-AR-09-004




                                         APPENDIX D: CALCULATION OF MONETARY IMPACT

    Table 5 presents the calculation methodology for the $2,920,451 in questioned costs and $619,279 in funds put to better
    use the OIG identified.

                                                            Table 5. Monetary Impact
                                  Questioned Unrecoverable Costs                                                Funds Put to Better Use           Total

                                 Number of       Average Loss      Number                                   Number
                               Vehicles Under    per vehicle per      of                                       of
     Cost        FYs 2006       Warranty FY       year for FYs     Vehicles        Cost FY                  Vehicles   Cost FY
  Categories     and 2007       2006 - 2007¹       2006 - 2007     FY 2008²          2008        Total      FY 2009³    2009         Total     Grand Total
Warranty           $745,164             40,740               $18     16,327         $298,633   $1,043,797     12,101   $221,336     $221,336    $1,265,133
Repairs Not
Identified

Warranty           1,339,739           40,740                33      16,327         536,915     1,876,654     12,101     397,943     397,943     2,274,597
Repairs Not
Reimbursed

Totals            $2,084,903           40,740               $51      16,327        $835,548    $2,920,451     12,101    $619,279    $619,279    $3,539,730
    ¹ The total number of FY 2006 warranty vehicles was 21,911, which was added to the number of FY 2007 of 18,829 warranty
    vehicles. This totaled 40,740 vehicles over the FY 2006–2007 timeframe. This total was divided into the total unrecoverable costs
    for this same period to determine the average cost per vehicle per year to use to calculate future recoverable costs based on future
    populations.
    ² The number of vehicles in the FY 2008 population was derived from vehicles acquired between FYs 2005 and 2008.
    ³ The number of vehicles in the FY 2009 population was derived from vehicles acquired between FYs 2006 and 2008.




                                                                              13
Vehicle Warranty Claims Process                                                  DR-AR-09-004



               APPENDIX E: SAMPLE OF VEHICLE MAINTENANCE FACILITIES

       VMF Location                              Area            District
       San Antonio                               Southwest       Rio Grande
       Omaha                                     Western         Mid-America
       Denver                                    Western         Colorado/Wyoming
       Phoenix                                   Western         Arizona
       Portland                                  Western         Portland
       Portland (Vancouver Aux)                  Western         Portland
       Seattle                                   Western         Seattle
       Royal Oak                                 Great Lakes     Detroit
       Detroit                                   Great Lakes     Detroit
       Saginaw                                   Great Lakes     Greater Michigan
       Lansing                                   Great Lakes     Greater Michigan
       Chicago                                   Great Lakes     Chicago
       San Diego                                 Pacific         San Diego
       Long Beach                                Pacific         Santa Ana
       San Francisco                             Pacific         San Francisco
       Sacramento                                Pacific         Sacramento
       Pittsburgh                                Eastern         Pittsburgh
       Lehigh Valley                             Eastern         Pittsburgh
       Philadelphia                              Eastern         Philadelphia
       Evansville                                Eastern         Philadelphia
       Cleveland                                 Eastern         Cleveland
       Cincinnati                                Eastern         Cincinnati
       Baltimore                                 Capital Metro   Baltimore
       Northern Virginia (in Merrifield)         Capital Metro   Northern Virginia
       Westchester (in White Plains)             New York        Westchester
                                                 Metro
       Brooklyn                                  New York        Triboro
                                                 Metro
       Western Nassau (in Garden City)           New York        Long Island
                                                 Metro
       Lynn                                      Northeast       Boston
       Hartford                                  Northeast       Connecticut
       Syracuse                                  Northeast       Western New York
       Buffalo                                   Northeast       Western New York
       Savannah                                  Southeast       South Georgia
       Mid-Florida                               Southeast       Central Florida
       Tampa                                     Southeast       Suncoast
       Mobile                                    Southeast       Alabama
                                  35 locations




                                                 14
Vehicle Warranty Claims Process                            DR-AR-09-004



                          APPENDIX F: FLOWCHART OF THE
                        VEHICLE WARRANTY SERVICE PROCESS




                                       15
Vehicle Warranty Claims Process                           DR-AR-09-004



                      APPENDIX G: MANAGEMENT’S COMMENTS




                                     16
Vehicle Warranty Claims Process        DR-AR-09-004




                                  17
